                                          July 27, 2004




MEMORANDUM TO:                Chairman Diaz


FROM:                         Hubert T. Bell /RA/
                              Inspector General


SUBJECT:                      NRC=S OVERSIGHT OF THE QUALITY ASSURANCE
                              PROGRAMS RELATED TO THE MANUFACTURE OF
                              HOLTEC INTERNATIONAL DRY CASK STORAGE SYSTEMS


Attached is an Office of the Inspector General (OIG), U.S. Nuclear Regulatory Commission
(NRC) Special Inquiry that addresses concerns with the NRC=s oversight of quality assurance
programs related to the manufacture of Holtec International dry cask storage systems.

Please call me if you have any questions regarding this Special Inquiry. This report is furnished
for whatever action you deem appropriate. Please notify this office within 120 days of what
action, if any, you take based on the results of this special inquiry.

Attachment: As stated


cc w/attachment:
Commissioner McGaffigan
Commissioner Merrifield
L. Reyes, EDO
     OFFICE OF THE INSPECTOR GENERAL
              SPECIAL INQUIRY




                 NRC’S OVERSIGHT OF THE QUALITY ASSURANCE

                 PROGRAMS RELATED TO THE MANUFACTURE OF

             HOLTEC INTERNATIONAL DRY CASK STORAGE SYSTEMS

                                   Case No. 03-03S




___________/RA/_______________               __________/RA/____________
William F. Stumme, Special Agent             Rossana Raspa, Team Leader




                        _____________/RA/______________
                                 Brian C. Dwyer
                               Assistant Inspector
                            General for Investigations
                         TABLE OF CONTENTS

                                                                         Page

BASIS AND SCOPE…………………………………………………………………………1


BACKGROUND………………………………………………………………………………2


DETAILS…………………………………………………………………………………….…5

   I.     Overview of Shirani’s Concerns ……………………………………………5

   II.    OIG Review of NRC Inspections of US T&D/Holtec QA Programs. …….7

   III.   OIG Review of NRC’s Handling of Shirani’s Technical Concerns .…….15


FINDINGS…………………………………………………………………………………….20
                                         BASIS AND SCOPE

The Office of the Inspector General (OIG), U.S. Nuclear Regulatory Commission (NRC),
initiated this inquiry in response to concerns that NRC failed to provide adequate oversight of
the manufacture of Holtec International dry cask storage systems used by nuclear power plants
to store spent nuclear fuel. Oscar Shirani,1 an auditor formerly employed by the Exelon
Corporation (Exelon), raised these concerns. Exelon is an NRC licensee that uses the Holtec
dry cask storage systems at its Dresden Nuclear Power Generating Station.2

Shirani’s concerns were based on the results of an audit conducted by the Nuclear Procurement
Issues Committee (NUPIC), a nuclear industry group composed of representatives from all
domestic and several international nuclear utilities. NUPIC utilizes personnel from member
utilities to conduct performance evaluations of nuclear industry suppliers and vendors. Shirani
was the lead auditor for the 2000 NUPIC audit which assessed the quality assurance (QA)
program used to ensure that spent nuclear fuel dry cask storage systems designed by Holtec
and fabricated by U.S. Tool and Die (US T&D) met their design requirements. This QA program
was developed and implemented by US T&D as required by Federal regulations. According to
Shirani, the 2000 NUPIC audit identified significant problems within the QA program for the
fabrication of these dry casks. Shirani believed that these problems could result in the
fabrication of defective casks and could affect the safe storage of spent nuclear fuel.3

In November 2001, after learning that he was going to be terminated by Exelon, Shirani
contacted the NRC Region III office and raised concerns about the QA program for the
fabrication of Holtec dry casks. His concerns included issues identified during the 2000 NUPIC
audit. NRC assessed and responded formally to these concerns, but Shirani was dissatisfied
with NRC’s assessment and in July 2003 raised his concerns to OIG. During his meeting with
OIG, Shirani stated that as a consequence of his experiences, he generally questioned NRC’s
ability to oversee nuclear industry QA programs. In particular, he pointed to a July 1999 NRC
inspection of the US T&D QA program which failed to identify problems similar to those
identified in the 2000 NUPIC audit. Additionally, Shirani asserted that NRC failed to adequately
address the concerns he reported to the agency in November 2001.

In response to these two concerns, this Special Inquiry:

             §   Reviewed the NRC’s July 1999 US T&D inspection in light of the 2000 NUPIC
                 audit and other NRC and NUPIC reviews of Holtec’s and US T&D’s QA programs
                 for the fabrication of dry cask storage systems.

             §   Reviewed NRC’s handling of the technical concerns related to the QA oversight
                 of dry cask storage systems reported by Shirani to the agency in November
                 2001.


1
  MD 8.8 indicates that NRC will not routinely release the identity of an alleger. However, Shirani agreed to the
release of his name in connection with his safety concerns pertaining to dry cask fabrication.
2
  As an NRC licensee, Exelon is required, under 10 CFR Part 50, Appendix B, Section VII, to assess the quality
controls of equipment providers to ensure the purchased items meet requirements.
3
  Shirani also alleged that Exelon’s follow-up actions concerning the audit findings were inadequate and that in
December 2001 Exelon terminated his employment for raising these issues. OIG did not address these issues in this
report. NRC’s Office of Investigations investigated Shirani’s allegations regarding his dismissal (OI Case 3-2001-
055).
                                              BACKGROUND

Dry Casks

Spent fuel is composed of the remains of nuclear fuel that had been used to generate nuclear
energy. This highly radioactive waste must be stored in a manner that prevents leakage of
radioactivity into the environment. Nuclear power plants have stored this spent fuel in water
pools at the reactor site. Periodically, about one-third of the nuclear fuel in an operating reactor
needs to be unloaded and replaced with fresh fuel, which creates a routine need for additional
storage space. In the late 1970s and early 1980s, the need for alternative storage capability
began to grow when pools at many nuclear reactors began to fill up with stored spent fuel.
Utilities began looking at options for increasing spent fuel storage capacity.

In 1982, Congress passed the Nuclear Waste Policy Act, which, in part, directed NRC to
approve a means for achieving interim dry storage of spent fuel at power plants until a
permanent, centralized high-level nuclear waste respository could be developed.4
Consequently, NRC promulgated its regulations to authorize nuclear power plant licensees to
store spent fuel at reactor sites in NRC-approved dry storage casks.5

To date, NRC has approved 14 cask designs for use under a general NRC license, and these
designs are listed in Title 10 of the Code of Federal Regulations, Part 72.214 (10 CFR Part
72.214). Casks typically consist of a sealed metal cylinder containing the spent fuel enclosed
within a metal or concrete outer shell. These systems are designed to resist floods, tornados,
missiles, temperature extremes, and other unusual scenarios.

NRC’s design approval – also known as a Certificate of Compliance (CoC) – places
responsibility on the dry cask vendor to establish a quality assurance (QA) program to oversee
all aspects of cask fabrication to ensure its casks are constructed as designed and will perform
satisfactorily. This QA program pertains to all steps related to production of a cask, including
design, testing, and fabrication.

NRC Spent Fuel Project Office

NRC’s Spent Fuel Project Office (SFPO), within the agency’s Office of Nuclear Materials Safety
and Safeguards (NMSS), is the primary office responsible for overseeing the storage of spent
nuclear fuel. Among its responsibilities, SFPO:

             ·    Develops and implements the agency's regulatory, licensing, and inspection
                  program for the storage of nuclear reactor spent fuel.

             ·    Develops policy, regulations, and guidance for designers, users, and fabricators
                  of NRC-certified dry spent fuel storage casks.




4
  The Department of Energy’s Yucca Mountain Project is an effort to establish the Nation’s first long-term repository
for high-level nuclear waste.
5
  The terms “cask” and “cask system” are equivalent and are used interchangeably in this report.


                                                          2
             ·    Conducts inspections of the implementation of QA programs by users, vendors,
                  and fabricators of NRC-certified dry spent fuel storage casks.

Applicable Regulatory Guidance

Federal requirements relevant to dry cask storage of spent nuclear fuel are contained in 10 CFR
Part 72, 10 CFR Part 50, and 10 CFR Part 21. These requirements govern the components of
a QA program which every CoC holder and every power and fuel-processing plant must
possess, and they require companies involved in nuclear related activities (e.g., dry cask
vendors and fabricators) to notify NRC if they discover defects within their facilities or
components that violate NRC regulations or orders, or pose a substantial safety hazard.

NRC licensees using dry casks and dry cask CoC holders must follow the requirements in 10
CFR Part 72, Licensing Requirements for the Independent Storage of Spent Nuclear Fuel, High-
Level Radioactive Waste, and Reactor-Related Greater Than Class C Waste. Subpart G,
Quality Assurance, outlines QA program elements with which these licensees and CoC holders
must comply. According to Subpart G, the QA program must include measures to ensure that
design requirements are met; that contractors and subcontractors provide their own QA
programs; that QA activities and instructions, drawings, and procedures are followed; and that
changes to QA procedures are reviewed and approved by authorized personnel. The QA
program must also include a corrective action component to identify problems and their causes
and ensure that corrective measures are taken, documented, and reported to the appropriate
management levels. Subpart G specifies that licensees and CoC holders are simultaneously
responsible for meeting these QA requirements through the oversight of their contractors and
subcontractors.

10 CFR Part 72, Subpart L, Approval of Spent Fuel Casks, addresses the regulatory
requirements with which dry cask design CoC holders must comply. Subpart L requires these
CoC holders to permit NRC to (1) inspect the premises and facilities where a spent fuel storage
cask is designed, fabricated, and tested; (2) review records pertaining to the design, fabrication,
and testing of dry casks; and (3) perform tests to ensure that regulatory requirements are met.

QA program guidance directed specifically at licensees is contained in 10 CFR Part 50,
Appendix B, Quality Assurance Criteria for Nuclear Power Plants and Fuel Reprocessing Plants.
This appendix specifies the QA program which every power and fuel-processing plant must
possess and closely mirrors the requirements outlined in 10 CFR Part 72, Subpart G. The
regulations mandate that licensee QA programs address all structures and systems with safety
significance, which would include a dry cask storage system once delivered and in use at a
plant.

10 CFR Part 21, Reporting of Defects and Noncompliance, requires companies involved in
constructing, owning, operating or supplying components or activities which are licensed or
regulated by the NRC to notify NRC upon discovery of defects within nuclear facilities or basic
components that violate NRC regulations or orders and could create a “substantial safety
hazard.”6 Firms licensed and regulated under 10 CFR Part 72 (e.g., dry cask design CoC
holders) are included among the list of entities required to submit defect reports under this
regulation.


6
  Substantial safety hazard means a loss of safety function to the extent that there is a major reduction in the degree
of protection provided to the public health and safety by the facility or component.


                                                           3
NRC inspectors conduct inspections to ensure that regulated activities are conducted in
accordance with applicable requirements. The NRC Inspection Manual provides the
overarching guidance for these inspections and includes numerous focused inspection
procedures which address all aspects of the NRC regulated nuclear industry. Ten of the
inspection procedures relate primarily to the interim storage of spent nuclear fuel and dry casks.
Particularly relevant to Holtec and US T&D activities is Inspection Procedure 60852, ISFSI
Component Fabrication by Outside Fabricators. This procedure provides specific inspection
guidance to allow inspectors to determine if a fabricator is manufacturing dry casks in
accordance with the requirements in 10 CFR Part 72 and reporting defects as required under 10
CFR Part 21. NRC review of the applicable QA programs, activities, and documents is an
integral portion of this inspection procedure.

Holtec International and U.S. Tool and Die

Holtec International (Holtec) is an energy-related technology company that designs and sells
equipment and provides consulting services to the energy industry. More than 70 percent of the
company's products are destined for nuclear power plants. Holtec’s Spent Fuel Systems
Division (SFSD) designs and oversees fabrication of items used in the storage of spent fuel,
including dry cask storage systems. Holtec holds CoCs for two dry cask storage systems: (1)
the Holtec International Storage, Transportation and Repository (HI-STAR) 100, and (2) the
Holtec International Storage, Transportation Operation Reinforced Module (HI-STORM) 100.
Many of the fabrication activities for Holtec designed items are conducted by contractors.
Holtec’s contractor for cask construction is U.S. Tool and Die (US T&D). As a CoC holder,
Holtec has an NRC-approved QA program and is responsible for overseeing the fabrication of
its casks at US T&D. This oversight responsibility includes ensuring that US T&D’s internal QA
program and processes are consistent with Holtec’s NRC-approved QA program.

Exelon Corporation

Exelon Corporation7 (Exelon), an NRC licensee, uses Holtec casks at its Dresden Nuclear
Generating Station to store spent nuclear fuel. To date, Exelon has loaded 21 dry casks at the
Dresden site. Per 10 CFR Part 50, Exelon is responsible for ensuring that all safety-related
components will perform appropriately. This extends to its use of dry cask systems to store
spent fuel at its power plants. As a result, Exelon’s own NRC-approved QA program must
monitor the QA programs of its vendors and suppliers and any of their subcontractors.

Nuclear Procurement Issues Committee (NUPIC)

In 1989, a group of nuclear utilities formed NUPIC to represent all domestic and several
international nuclear utilities operating nuclear power plants. A primary goal was to provide a
cost-effective, cooperative program to evaluate the performance of vendors and suppliers
furnishing safety-related items and services to the nuclear industry. NUPIC conducts joint
audits and surveys utilizing accepted industry standards to evaluate these items and services.
NUPIC audit teams are composed of representatives from member utilities, each of which is
responsible for ensuring the quality and integrity of the items they procure. These joint audits
obviate the need for each member utility to conduct individual audits on items and services used
by multiple nuclear power companies.


7
 Exelon Corporation was formed by a merger in October 2000. One of the entities merged was ComEd, for which
Shirani worked. The name, Exelon, is used exclusively in this report to represent Exelon and the preceding entities.


                                                          4
                                          DETAILS

I.     OVERVIEW OF SHIRANI’S CONCERNS

During an interview of Oscar Shirani conducted by OIG in July 2003, OIG learned that during
June 19-23 and July 5-7, 2000, NUPIC conducted an audit of US T&D to assess the adequacy,
effectiveness, and implementation of the company’s QA program. Exelon, a user of dry casks
designed by Holtec and fabricated by US T&D, was the lead utility for the audit, and Shirani, an
auditor then employed by Exelon, was the lead auditor. He was assisted on this audit by five
auditors and two technical specialists.

Shirani told OIG that the NUPIC audit identified nine findings which indicated that the Holtec
casks fabricated by US T&D might not match their NRC-approved design specifications. For
example, Shirani noted that US T&D had purchased many items and parts from suppliers that
had not been audited. As a consequence, Shirani believed that the quality and precision of
these components could not be trusted and this called into question the overall integrity of the
casks. Shirani believed that the NUPIC audit findings were so significant that Exelon should
have issued a Stop Work Order (SWO) against US T&D and Holtec until these problems could
be corrected. Shirani was disappointed that despite his recommendations to his supervisor,
Exelon did not issue an SWO.

Shirani said that on September 5, 2000, US T&D responded to the NUPIC audit and addressed
the causes and provided corrective actions for each finding. Exelon was responsible for
reviewing US T&D’s proposed corrective actions. Shirani told OIG that he signed Exelon’s
response, dated October 19, 2000, to US T&D which stated that the proposed corrective actions
were reasonable; however, he told OIG he did so only because of pressure from his
supervisors. Additionally, he said he agreed to sign the October 19 letter because the letter
kept the NUPIC audit findings open until their resolution could be verified. Shirani also claimed
to OIG that he was prevented by his supervisor from conducting any follow-up review of US
T&D to ensure that the audit findings were properly addressed. He felt that having served as
the lead auditor on the original NUPIC audit, he should have been the person who reviewed and
verified US T&D’s corrective actions.

Shirani related that in December 2000, he agreed to a transfer from the section that provided
QA oversight of Exelon suppliers into a financial audit position. In October 2001, Shirani
learned that his employment with Exelon would be terminated, effective December 2001. In
November 2001, Shirani formally came to NRC Region III with concerns about Exelon’s,
Holtec’s, and US T&D’s QA programs. Shirani stated that the NRC responded formally to these
concerns, but he was dissatisfied with NRC’s responses and subsequently contacted OIG.

Shirani told OIG that the 2000 NUPIC audit identified significant safety issues related to the QA
oversight of the manufacture of the spent nuclear fuel dry cask storage systems. He said that
the problems were extensive and recurring. Shirani noted that in June and July 1999, NRC
conducted an inspection of the US T&D QA program but failed to uncover any of the same
deficiencies identified during the 2000 NUPIC audit. Shirani characterized NRC as “sleeping”
during its 1999 inspection, and he felt that NRC should have identified similar weaknesses at
US T&D as those discovered by NUPIC. According to Shirani, he was more rigorous than NRC
inspectors in evaluating US T&D against the relevant industry and regulatory standards.




                                                5
Shirani also told OIG that although Region III made reasonable attempts to capture his
concerns pertaining to the QA programs at Holtec and US T&D when he reported them in
November 2001, the agency failed to fully understand his issues and came to the wrong
conclusions. Shirani said he disagreed with NRC’s response to his concerns, which, in his view,
was evidence of the NRC staff’s inability to properly regulate the nuclear industry. Shirani
maintained that his NUPIC audit findings were based on criteria established in the applicable
industry codes and in NRC regulations. According to Shirani, NRC inspectors lacked an
understanding of these codes and regulations and the expertise necessary to address his
technical issues. Shirani stated to OIG that he did not accept NRC’s conclusions because they
conflicted with his perception of conditions at US T&D and because he could not verify how
NRC reached its conclusions.




                                              6
II.      OIG REVIEW OF NRC INSPECTIONS OF US T&D/HOLTEC QA PROGRAMS

Because of Shirani’s contention that the 2000 NUPIC audit findings were indicative of extensive,
recurring deficiencies in the Holtec QA program that the NRC should have identified during its
inspections, OIG reviewed:

               §    NRC’s 1999 inspection of US T&D’s QA program.

               §    NUPIC’s 2000 audit of US T&D’s QA program.

               §    Other NRC and NUPIC inspections of Holtec and US T&D QA programs
                    conducted prior to and following the 2000 NUPIC audit. (NRC conducted three
                    inspections related to Holtec and US T&D dry cask QA programs between July
                    2000 and February 2002. In addition to the 2000 audit, NUPIC conducted three
                    audits related to US T&D’s QA program between 1996 and 2002.)

July 1999 NRC Inspection of US T&D

From June 28 to July 2, 1999, three NRC Headquarters SFPO inspectors conducted an
inspection of US T&D’s facility to determine whether:

               §    US T&D was fabricating the dry cask storage systems in accordance with 10
                    CFR Part 72 regulations for spent fuel storage systems and the NRC-approved
                    QA program for Holtec.

               §    Manufacturing defects were being reported as required under 10 CFR Part 21.

               §    Holtec’s QA oversight of US T&D cask fabrication activities was effective.

The resulting NRC inspection report (IR 72-1008/99-201), dated August 2, 1999, indicated that
inspectors reviewed US T&D management controls, design controls, and fabrication controls.
With regard to management controls, NRC inspectors reviewed US T&D QA program goals,
objectives, and practices. They also reviewed the effectiveness of the QA program in
controlling quality-related documentation, including inspection of engineering drawings and
change notices, and inspection and test procedures. Inspectors reviewed the nonconformance8
control program to assess the effectiveness of measures established to control materials, parts,
and components that did not conform to design requirements. To assess design controls,
inspectors reviewed design development and modifications, including reviews of engineering
changes, design reviews, and document changes. NRC inspectors also reviewed fabrication
controls to determine if all phases of the fabrication process were properly controlled,
implemented, and verifiable, to include material procurement, fabrication, and assembly. This
included a review of nuclear industry codes, standards, and drawings to assess if fabrication
procedures were followed; a review of inspection and test acceptance criteria and test
conditions; and a review to determine if tools and equipment were properly calibrated and met
standards.

While the 1999 NRC inspection report identified no violations of NRC regulations, it documented
several observations. For example, the report noted that in the area of fabrication and
assembly, US T&D did not complete one logbook entry regarding the issuance of welding

8
    Nonconforming items are those which do not exactly conform to design specifications.


                                                           7
material as required by US T&D’s quality control procedures. In response to NRC’s
observation, US T&D entered the item into its corrective action system, provided additional
training to the individual who did not complete the log, and updated the log entry. Another
observation questioned the independence of Holtec’s QA auditing personnel. The inspection
report noted that the last three annual internal audits of Holtec’s QA program were performed by
US T&D and that the last three annual audits of US T&D ’s QA program were performed by
Holtec. The report also indicated that Holtec and US T&D agreed to cease conducting audits of
each other’s QA programs to ensure independence of the audit process.

Another observation in the 1999 NRC inspection noted a lack of clarity in Holtec’s requirements
for US T&D concerning the retention of fabrication drawings. In response, Holtec agreed to
update the applicable procurement specification to clarify these requirements.

Overall, the NRC inspection report concluded that US T&D’s QA program was adequately
implemented and that Holtec’s oversight of US T&D’s cask fabrication activities was adequate.

NRC Inspector Comments

Two of the SPFO inspectors involved in the 1999 NRC inspection of US T&D told OIG that each
inspection team member was assigned to sample particular key areas or processes to
determine US T&D’s compliance with NRC regulations. To do so, they reviewed US T&D’s
procedures and inspection records, observed work practices, and interviewed personnel in key
areas to determine the company’s compliance with NRC requirements. The inspectors told OIG
that while the inspection focused on a sampling of US T&D activities, the results were indicative
of the company’s overall compliance with NRC regulations.

For example, one inspector recalled that he assessed the material control process by (a)
observing an individual perform welding work, (b) reviewing training and qualification records for
the individual to determine if the individual was qualified to perform the work, (c) reviewing
records to ensure the individual’s equipment was appropriately calibrated and tested, and (d)
checking records to ensure that appropriate materials were being used. The inspector recalled
identifying an instance in which a log entry had not been completed for a particular welding
material. The inspector noted that although the correct welding material was used, it had not
been documented appropriately. The inspector said he checked other similar log entries to
determine if this failure to document the use of the welding material was an isolated instance or
a recurring problem. According to the inspector, he confirmed that the failure to complete the
paperwork as specified in US T&D’s procedures was an isolated case that did not call into
question the integrity of the casks. Although this issue was not a violation of NRC regulations or
something that would affect the safety or integrity of the casks, the inspector said that because
he had noted this weakness, he included it in the inspection report as an observation.

Two of the NRC inspectors who conducted the US T&D inspection told OIG that throughout the
inspection process the inspectors discussed what they were finding. Neither of the inspectors
recalled any dissension or disagreement among the NRC inspection team members about the
inspection results. Both inspectors told OIG that they believed the NRC inspection report
accurately captured the results of the 1999 US T&D inspection, and each recalled having a
favorable impression of US T&D’s overall activities.




                                                8
NUPIC’s 2000 Audit of US T&D

Approximately 1 year after NRC’s 1999 inspection of US T&D, NUPIC conducted an audit of the
adequacy, effectiveness, and implementation of US T&D’s QA program for its wet and dry spent
fuel storage fabrication activities. The audit spanned 8 days in June and July 2000 (June 19-23
and July 5-7), and the audit team, led by Shirani, comprised six auditors (including Shirani) and
two technical specialists from five different NRC licensee utilities.

In its executive summary, the August 4, 2000, NUPIC report (SR-2000-257) noted that US T&D
had established a “fairly acceptable” QA program but that “enormous improvement” was needed
in the areas of special processes and the corrective action program. The audit report, signed by
Shirani, identified nine findings which are summarized below.

       Organization/Program
       1.  US T&D’s organization chart was not consistent with the identified positions and/or
           authority and responsibilities depicted in US T&D’s Quality Assurance Manual.

       QA Records
       2.  This finding identified a lack of procedures related to the storage of QA documents.
           Some documents were not maintained in a fireproof container.

       Corrective Action
       3.   US T&D did not take adequate corrective action relative to one corrective action
            report and failed to identify a solution that would prevent recurrence of the problem.
            This finding was closed during the audit.

       Training/Certification
       4.    There was a lack of procedures concerning documentation of training records,
             which resulted in the use of different forms and missing documentation pertaining
             to some training.

       Calibration
       5.    Calibration of the temperature in two rod ovens was about 3 months overdue.
             During the audit, the as-found temperatures were acceptable.

       Special Processes
       6.   Eleven items were identified that pertained to (a) US T&D’s use of
            nonconformance reports to control welding applications where no approved
            procedure existed, and (b) documentation of welding procedures that was either
            ineffective, incorrectly completed, or raised questions concerning safety issues.
            Although the audit indicated the condition of the casks appeared to be of “high
            quality,” these two problem areas were deemed significant.

       Procurement/External Audit
       7.   Issues were identified that pertained to audits of vendors, e.g., some audit due
            dates had passed without an audit being conducted, some external audits of
            vendors were not comprehensive, and no audits were scheduled or planned for
            some vendors. In one case, a vendor that provided safety-related thread gauges
            to US T&D was not on the company’s approved vendor list and had not been
            audited.



                                                9
        Corrective Action
        8.   A corrective action report was issued on a particular fabrication issue. This report
             indicated the issue was of an isolated nature and was intended to prevent
             recurrence. Nonetheless, four subsequent reports were found on the same issue
             suggesting the corrective action program was ineffective.

        Test/Inspection
        9.    US T&D did not initiate a nonconformance report when a pressure test was
              performed using an uncalibrated gauge, US T&D did not satisfy a test requirement,
              and responsible personnel did not review and approve the test report.

US T&D responded to the NUPIC audit report in a letter dated September 5, 2000, and
addressed the causes and provided corrective actions for each of the audit findings. An Exelon
letter dated October 19, 2000, advised US T&D that the company’s planned corrective actions
were acceptable. The Exelon letter was prepared and signed by Shirani and stated, “Your
response to the Nine (9) Audit Findings sounds reasonable.” The letter also noted that the
findings would remain open until the corrective actions specified by US T&D were verified by the
NUPIC designated resident inspector at the US T&D facility. The letter also invited US T&D to
contact Shirani in the event of questions.

Subsequently, in a letter to Exelon dated February 21, 200[1], the NUPIC designated resident
inspector (employed by Entergy Operations, Inc., and assigned to work at US T&D) indicated
that surveillance activities of the corrective actions were conducted from December 2, 2000,
through February 15, 2001. This letter indicated that the corrective actions were completed
satisfactorily and that the 2000 NUPIC audit findings should be closed. On February 22, 2001,
Exelon concurred with the inspector’s recommendation and closed the findings.

OIG Interviews NUPIC Auditors

According to an auditor who worked with Shirani on the 2000 NUPIC audit, none of the nine
findings from the 2000 NUPIC audit were reason to question the integrity of the dry casks
produced by US T&D. This auditor, who also worked on a similar NUPIC audit in 2002, was
employed by Energy Northwest, another nuclear power utility that used Holtec dry cask storage
systems. The auditor had 20 years of experience and estimated that he had participated in
about 200 audits as a team member and about 100 as a team leader. The auditor told OIG that
no one on the audit team, including Shirani, appeared to consider the audit findings to meet the
criteria of a “significant condition adverse to quality” at the time of the audit.9 He noted that
there were requirements in the NUPIC Joint Audit Procedure guidance to immediately notify
NUPIC member companies who used the products being audited if a problem of safety
significance was identified. The auditor said that there were no discussions among the 2000
NUPIC audit team members, including Shirani, during which anyone expressed a need to make
such notifications and no such notifications were made.

The auditor explained to OIG that a utility could impose an SWO in response to safety
significant issues identified by NUPIC audits, but the findings reported in the 2000 NUPIC audit
did not warrant such an action. He said there was nothing especially significant about the
NUPIC audit findings, and he considered many to be “paperwork deficiencies.” He said the
findings reflected the “growing pains” of a company that had recently experienced a rapid

9
  NUPIC Joint Audit Procedure guidance document indicates that conditions meeting this term are those that “have
the net result of placing the product’s ability to function in its intended application in question.”


                                                       10
growth in its business. He noted that neither the 2000 or 2002 NUPIC audits in which he
participated called into question the overall integrity of earlier NUPIC audits or NRC inspections.

A second auditor who participated in the 2000 NUPIC audit told OIG that about half of the nine
findings would have been better viewed as observations, rather than findings. This auditor, who
was employed by Alliant Energy, had approximately 15 years of auditing experience at the time
of the NUPIC audit, and had participated in “hundreds” of audits, including at least 30 NUPIC
audits. He noted that none of the 2000 NUPIC audit findings called the integrity of the casks
into question but that these findings demonstrated weaknesses in the paperwork and
administration associated with the QA process. According to the auditor, the finding pertaining
to the handling of nonconformance reports was the most significant; however, the overall QA
program was adequately implemented.

NRC Inspections of Holtec and US T&D QA Programs

OIG learned that, among other NRC inspection and licensing activities pertaining to Holtec and
US T&D operations between May 2000 and February 2002, NRC’s SFPO conducted three
inspections into the companies’ QA programs for the fabrication of dry cask systems. While the
first inspection was very limited in scope, the latter two NRC inspections were overall QA
program reviews that were similar in scope to NRC’s 1999 inspection of US T&D. Each of the
NRC inspections was conducted prior to the SFPO’s knowledge of Shirani’s allegations.

In May 2000, NRC conducted a limited inspection at Holtec that focused on the adequacy of a
neutron shielding material considered for use by Holtec in the dry cask design. NRC inspection
report 71-0784/00-201, dated July 25, 2000, reflected that SFPO inspectors reviewed past tests
and ongoing test data to validate use of the material, the design and the development of the
shielding material, and to determine whether Holtec complied with QA requirements to report
defects and noncompliance items under 10 CFR Part 21. The inspection report identified
weaknesses in Holtec’s implementation of procedures for identifying and reporting potential
noncompliances on safety significant projects. For example, the NRC inspection found that
during testing of samples of the neutron shielding material in 1998, Holtec did not file a report
with the NRC in accordance with 10 CFR Part 21 when it learned that the shielding material did
not perform as required by its design specifications. NRC inspectors disagreed with Holtec’s
determination that because the vendor of the neutron shielding material was ultimately rejected
by Holtec as a potential supplier, no report was necessary. Despite this weakness, the report
indicated that in areas of management, design, and fabrication controls with respect to the
neutron shielding material, the Holtec QA program met regulatory requirements and no
violations were identified.

In September 2001, inspectors from NRC’s SFPO conducted an inspection of Holtec’s
fabrication and QA programs for the dry cask storage systems and Holtec’s oversight of US
T&D. According to inspection report 72-1014/01-201, dated October 22, 2001, inspectors
evaluated management, design, and fabrication controls; reviewed procedures and instructions,
selected documents, records, and drawings; verified training and qualifications; and interviewed
Holtec personnel. While the NRC inspection concluded that management controls and
implementation of the QA program met regulatory requirements, the report identified five




                                                11
Severity Level IV violations and one non-cited violation.10 The first Severity Level IV violation
noted that at the time of the inspection, Holtec was using a revised QA program that had not yet
been approved by the NRC. The other four violations included a lack of documented
procedures for QA surveillances, an ineffective corrective action by Holtec regarding the
incorporation of design changes on technical drawings, seven instances involving failure to
follow procedures because engineering change orders were edited in ways not prescribed in
Holtec procedures, and inadequate design control regarding a drawing note that allowed weld
defects in excess of industry codes which did not conform to the requirements of the Holtec
CoC. The non-cited violation was related to an issue identified by Holtec in which one of the
procedures regarding the review of engineering drawings did not match the procedure outlined
in the QA manual.

In addition, the October 2001 inspection report noted weaknesses that demonstrated that the
procedural issues identified in the violations were fairly broad in scope. Further, the report
noted that the team identified a weakness regarding corrective actions caused by inattention to
detail and failure to follow procedures. The report reflected that design control QA activities
were adequate but that the team found more problem areas than expected, particularly in the
area of the adequacy of and compliance with procedures.

In a November 21, 2001, letter to NRC, Holtec agreed with NRC’s five cited violations, identified
the causes for each violation, described corrective measures to bring the issues into regulatory
compliance, and outlined corrective actions to avoid recurrence of the violations.

In February 2002, NRC conducted an inspection of US T&D dry cask storage system fabrication
activities. NRC inspection report 72-10114/02-201, dated February 27, 2002, reflected that
SFPO inspectors reviewed administrative procedures and qualification and training
documentation; interviewed multiple welders, quality assurance staff, and procurement
personnel; and observed material tests conducted by US T&D personnel. As part of this effort,
inspectors reviewed procedures for documentation of corrective action reports and
nonconformance reports, reviewed vendor audits, and reviewed 19 items to determine if
suppliers were listed on US T&D’s approved vendors list. The report identified two Level IV
violations for US T&D’s failure to control conforming material. The first violation involved the
failure by US T&D to tag nonconforming items appropriately to ensure they were segregated
from other items until a final determination was made on their condition. The second violation
involved the failure to put a hold on the casks to preclude the inadvertent use of casks whose
design did not conform to certain industry specifications. These nonconformances had
previously been identified as a violation in the September 2001 NRC inspection, and
subsequent to the inspection, Holtec and US T&D failed to place a hold on casks whose
nonconformances had not been approved by the NRC. As a result, seven of these casks were
loaded with spent fuel at the Dresden plant. These findings were shared with Region III
inspectors responsible for inspecting the Dresden plant for their follow-up and possible
regulatory sanctions.



10
    NRC’s inspection program ranks violations on a scale of I to IV. Severity Level IV violations are less serious than
Level I through III violations but are of more than a minor concern. Violations at Severity Level IV involve
noncompliance with NRC requirements that are not considered significant based on risk. In addition, violations
determined to have a very low safety significance and that do not require written responses from the
licensee/certificate holder are referred to as non-cited violations. The licensee is required to maintain safety and
compliance and must take steps to address corrective actions for these violations.




                                                          12
In an April 10, 2002, letter to NRC, Holtec identified causes of the violations, corrective actions
to bring the issues back into regulatory compliance, and corrective actions designed to avoid
recurrence of these violations. Among the immediate actions taken, Holtec notified all of its
customers to cease loading its casks until approvals were received from NRC to allow specific
variations to standard industry design codes. In February 2002, Holtec applied for these
variance approvals, and in March and May 2002, NRC approved the variances. This approval
was granted after SFPO staff reviewed the technical basis for the variances and found that the
variances did not compromise cask design integrity.

OIG Interviews NRC Inspectors

SFPO inspectors who conducted the inspections of the Holtec QA program for dry casks from
2000 through 2002 told OIG that the violations identified during the NRC inspections did not
affect the integrity of the dry casks. As an example, one inspector referenced one of the
violations identified in the September 2001 inspection regarding weld authorizations that did not
meet the applicable industry design codes. These codes outline specific, technical
requirements that must be met in the design of various nuclear related components and
devices. The inspector stated that on occasion, a device’s design might include features that do
not meet the code requirements. In these instances, industry codes have specific methods for
obtaining exceptions, or permission, to vary from the standard requirements. The weld violation
cited in the September 2001 inspection report reflected that procedures for obtaining an
exception were not followed by Holtec; however, NRC inspectors reviewed the technical details
associated with the variance to determine if it caused a reduction in the cask’s integrity. The
inspectors determined that it did not. The inspectors also monitored whether US T&D
performed the proper corrective actions to address any violations identified during NRC
inspections and found that the company had taken appropriate corrective actions.

Another NRC inspector noted that inspectors generally find violations during inspections at both
vendor and fabricator facilities. He explained that all QA programs have “human failures” that
could result in some items not conforming exactly to design specifications. However, according
to this inspector, of greater importance was a company’s corrective action program and whether
the company dealt with problems in a systematic manner which, he believed, was the case at
US T&D. The inspector told OIG that based on his inspections, neither Holtec nor US T&D had
issues that indicated programmatic QA problems.

A different SFPO inspector told OIG that there have been only a few changes over time
regarding the general design and process of fabricating dry casks. He noted there are only
three companies that supply dry cask storage systems to the nuclear industry. As a result, the
SPFO has identified and addressed inspection and licensing issues related to these dry casks
and has inspected vendors and fabricators in a sufficient, recurring manner to provide adequate
regulatory oversight of the fabrication of storage casks. He also told OIG that he was not aware
of any instance where a dry cask had been placed into service and found not to perform its
function of safely containing radioactive material. According to this inspector, the lack of any
major issue identified during the actual use of these casks was an indicator that vendors and
fabricators were being regulated properly.

One SFPO inspector told OIG that dry casks are tested during fabrication and as they are
loaded with spent fuel. Loaded casks are then tested after they are positioned in the storage
area at the nuclear plant. This inspector stated that the casks fabricated at the time of the 2000
NUPIC audit would certainly have been loaded since that time. He indicated that he was aware



                                                 13
of only one minor incident involving the integrity of a dry cask, and that incident pertained to a
non-Holtec/US T&D cask.

NUPIC Audits Conducted From 1996 – 2002

OIG learned that between 1996 and 2002, NUPIC conducted four audits of the Holtec and US
T&D QA programs. Of the four NUPIC audits, only the 2000 audit led by Shirani identified any
findings that required follow-up. The following are summaries of the three NUPIC audits
conducted in 1996, 1999, and 2002. Each of these NUPIC audits was led by a different utility,
with Exelon serving as the lead in 2002.

NUPIC audit report of US T&D (VEND-96-023) dated March 25, 1996, described a limited scope
audit conducted between March 7-8, 1996, which focused on US T&D products and services,
including basic fabrication and welding, machining, and engineering. The audit, intended to
supplement a 1994 NUPIC audit (VEND-94-062), noted that US T&D programs for submitting
nonconformance reports under 10 CFR Part 21, preparing corrective active reports, and for
auditing suppliers and vendors were reviewed. The audit report identified no deficiencies at US
T&D, found all audited areas satisfactory and noted that the 1994 audit had also identified no
findings.

NUPIC audit report of US T&D (SQL 99-093) dated December 13, 1999, reported results of an
audit conducted between November 15-19,1999, to verify compliance and implementation of
NRC requirements under 10 CFR Part 50, Appendix B, which establish criteria for licensee QA
programs. Although this audit focused on the fabrication of components used in “wet storage”
facilities, the review covered many areas in common with the 2000 NUPIC audit. For example,
welding activities, including the calibration of welding machines and the processes for issuing
welding materials and equipment, were reviewed and found to be in compliance with US T&D
guidance and industry standards. Additionally, the procedures for auditing suppliers and
vendors, as well as the corrective action programs, were inspected and found to be satisfactory.
NUPIC audit report SQL 99-093 did not document any adverse findings.

NUPIC audit report of US T&D, SR-88050-02 (18194), dated August 20, 2002, reflected that this
audit was conducted between July 15-19, 2002, to “evaluate the adequacy and implementation
of the US T&D programs and procedures that control the manufacture of spent fuel storage
racks and dry cask storage containers.” The report noted that all areas audited were rated
“satisfactory,” and the report did not list any findings or recommendations requiring a response.

NUPIC audit report SR-88050-02 also noted that the nine findings from the 2000 NUPIC audit
were re-examined and that corrective actions had been effectively implemented and no
recurrences were identified. For example, the report indicated that corrective action reports had
been reviewed in light of Finding 8 from the 2000 audit. This review demonstrated that no
additional repetitive issues similar to those previously identified had been noted, and that the
corrective action process was “healthy and adequately” implemented. US T&D compliance with
10 CFR Part 21 reporting requirements was also reviewed, and the system of tagging
nonconforming items until a final disposition was achieved was found acceptable. The program
for auditing suppliers (some of which were conducted jointly with Holtec) was also reviewed and
found complete. Additionally, cask fabrication welding activities were reviewed by the NUPIC
audit team, and all the welding reviewed was verified to be performed by “suitably qualified
welders in accordance with the requisite [procedures].”




                                                 14
III.    OIG REVIEW OF NRC’S HANDLING OF SHIRANI’S TECHNICAL CONCERNS

Shirani related to OIG that after learning in October 2001 that he was going to be terminated by
Exelon, he contacted NRC Region III and met with regional staff on several occasions beginning
in November 2001 to provide information about safety concerns related to deficiencies he noted
during his employment as an auditor with Exelon. Among these concerns were several that
specifically related to the fabrication of dry cask systems by Holtec and US T&D. Shirani told
OIG that because of deficiencies in the QA documentation, particularly the handling of items
that did not exactly conform to design specifications, he believed that none of the cask
components could be relied upon.

NRC Region III’s Handling of Shirani’s Allegations

OIG learned that the Region III Allegation Review Board (ARB)11 met on a regular basis to
monitor the progress of allegations received by the Region, including the allegations reported by
Shirani. The ARB and other regional staff members selected for their technical expertise
reviewed written material submitted by Shirani, along with transcripts and notes from the
meetings with Shirani. The information provided by Shirani concerned a wide-ranging
assortment of QA, safety, and other issues, going back several years that was derived from
various audits and activities with which Shirani had been involved during his tenure with Exelon.

Region III grouped Shirani’s issues into 19 separate concerns that were documented in two
allegation files. Of the 19 concerns reported by Shirani, 15 related to his termination and to
findings from various audits he had conducted while with Exelon. Four of the concerns related
directly to the fabrication of the dry cask storage systems by US T&D. These four concerns
stemmed from the 2000 NUPIC audit of US T&D’s QA program, a 1999 Exelon audit of Holtec’s
QA Program, and information Shirani received from an Exelon resident inspector and QA
personnel at US T&D. The following are summaries of Shirani’s four concerns:

        (1)          Holtec did not report defects involving “wide-ranging welding deficiencies” in
                     the fabrication of the dry casks as required by 10 CFR Part 21.

        (2)          Dry casks were manufactured with non-approved materials.

        (3)          US T&D violated QA requirements by making repairs and accepting items
                     “as-is” without obtaining review and approval of the designers (i.e., Holtec).

        (4)          The use of nonconforming items without an engineering analysis violated QA
                     program controls.

Shortly after each of three major meetings Shirani had with Region III staff, Region III sent
Shirani letters – in November 2001, February 2002, and April 2002 – summarizing the concerns
that he had brought forward. Shirani told OIG that he felt Region III had made a reasonable
attempt to capture the information he had provided.

The Region III ARB recognized that the four concerns involving the design and fabrication of dry
cask storage systems pertained to systems that were used by nuclear power plants throughout

11
  NRC has an Allegation Management Program for receiving, evaluating, and managing information brought to the
agency about potential nuclear safety-related issues. Allegation Review Boards consist of designated individuals
who monitor and approve the initiation, progress, and resolution of these issues.


                                                       15
the country. Because the monitoring and inspection of spent fuel system vendors and suppliers
falls under the purview of SFPO, located organizationally within NMSS at NRC Headquarters,
Region III forwarded the concerns in memoranda dated February 20, 2002, and April 19, 2002,
to NMSS where an NMSS ARB assigned the concerns to a senior SFPO inspector. This SFPO
inspector had not participated in the NRC’s 1999 inspection of US T&D.

Following the transfer of these concerns to NMSS’ ARB, Region III took no further action to
review the four technical concerns related to the dry casks. The remaining 15 concerns were
handled through the Region III allegation process.

SFPO Assesses Validity of Shirani’s Concerns With Dry Cask Storage Systems

Between May 6-9, 2002, the senior SFPO inspector and another inspector conducted an
inspection at Holtec to (1) determine whether Shirani’s concerns were valid and (2) follow up on
the five Severity Level IV findings identified during SFPO’s September 2001 inspection at Holtec
and the two Severity Level IV findings identified during the February 2002 SFPO inspection at
US T&D. The inspection results were documented in NRC inspection report 72-1014/02-202,
dated May 14, 2002, and in SFPO correspondence to Shirani dated May 28, 2002.

According to the May 2002 inspection report, all seven violations reported in the two prior NRC
inspections had been adequately addressed by Holtec; therefore, these violations were
closed.12 The inspectors also concluded that none of the four concerns reported by Shirani
were violations of NRC regulations or were safety significant. This evaluation of the four
concerns was conveyed to Shirani in correspondence from NMSS dated May 28, 2002.
Shirani’s four concerns and NRC’s responses are summarized below.

Concern 1: Wide-ranging welding deficiencies existed in spent fuel storage casks
manufactured by Holtec and US T&D. These deficiencies demonstrated that there were
fundamental flaws in the casks. Because the casks are considered components under
10 CFR Part 21, the flaws should have been reported, but neither Holtec nor Exelon
reported them.

NRC Response: NRC inspectors reviewed the 2000 NUPIC audit finding concerning welding
deficiencies and noted that the number of deficiencies was not excessive, given the number of
NUPIC auditors and duration of the audit. The NRC inspectors noted that none of the
deficiencies resulted in rework or repair of the hardware. The NRC inspectors reviewed US
T&D’s corrective actions taken to prevent recurrence. Inspectors noted that the corrective
actions primarily involved procedure clarifications and welder retraining regarding weld
documentation. Inspectors indicated that absent the identification of a defect in a basic
component, there was no requirement under 10 CFR Part 21 to report weld deficiencies. The
inspectors also noted that NRC performed an inspection of fabrication activities including
welding at US T&D in February 2002 and that this inspection found no welding problems and
considered welding activities to be adequately controlled. NRC inspectors concluded that this
concern was not substantiated.




12
   The follow-up efforts are described in NRC inspection report 72-1014/02-202. All seven findings from the earlier
inspections were closed based on this report. However, one additional violation of minor significance regarding weld
documentation that failed to meet industry standards was noted. This violation was related to welding documentation
for another Holtec project and did not involve the fabrication of dry casks.


                                                        16
Concern 2: Holtec spent fuel storage casks were manufactured with materials from
suppliers that were not approved to supply safety-related materials. Neither Holtec nor
Exelon had audited these suppliers to establish product acceptability as required under
10 CFR Part 50 and 10 CFR Part 72.

NRC Response: Inspectors reviewed the 2000 NUPIC audit that identified five apparent
deficiencies involving material suppliers and reviewed US T&D corrective actions. NRC
inspectors noted that none of the material supplier deficiencies resulted in invalidation of work or
required repair of the hardware. Inspectors noted that the materials used for fabrication were
almost exclusively provided to US T&D from Holtec using Holtec’s approved suppliers. The
NRC inspectors noted that a February 2002 NRC inspection reviewed the material controls
program at US T&D and did not find problems with material supplier controls. While the NRC
inspectors substantiated13 the conditions described by Shirani, they concluded there was no
safety significant or regulatory issue.

Concern 3: US T&D modified spent fuel storage casks during the fabrication process by
making repairs and/or accepted discrepancies “as is” without obtaining the required
design review and approval from Holtec. Shirani was concerned that this was contrary to
Exelon procedures.

NRC Response: NRC inspectors found that Holtec had failed to provide explicit procedures and
instructions regarding certain types of fabrication discrepancies and that the Holtec deficiency
form, a Supplier Manufacturing Deviation Report (SMDR), lacked a block to reflect the category
“reworked.” The inspectors noted that the NUPIC audit concluded that these findings had “no
negative impact” on the casks and that US T&D had added the category “rework” to the SMDR
form subsequent to the audit.

The NRC inspectors reviewed Holtec and US T&D procedures to determine, if required, how
engineering approval was obtained when fabrication discrepancies occurred. The review did
not identify any instances where procedures were not in accordance with regulatory
requirements. The inspectors noted that US T&D fabrication drawings generally had tighter
tolerances than those on Holtec’s engineering drawings. This allowed for some margin for error
on the shop floor without requiring engineering approval as long as the engineered drawing
requirements were not exceeded. Therefore, in cases where only US T&D tolerances were
exceeded, US T&D did not require Holtec’s approval because the Holtec tolerances were not
exceeded. The NRC inspectors also noted that Holtec had resolved a procedural matter
involving the company’s failure to forward “use-as-is” dispositions to Exelon for approval in
accordance with contract requirements. The inspectors characterized this as a contract
requirement dispute and not a regulatory concern. The NRC inspectors noted that the dispute
had been resolved.

The inspectors examined the examples referenced in the NUPIC audit and found no instances
where engineering approval was required but not obtained. Additionally, the inspectors relied
on their sampling and review during NRC’s February 2002 inspection at US T&D to demonstrate
that there were no other instances where required approval was not obtained.

The NRC staff substantiated the conditions as described by Shirani, but determined there was
no significant safety or regulatory issue that required further NRC action.

13
  Substantiation in this context meant that NRC concluded that the conditions that Shirani described existed.
However, the concerns were not found to be safety significant or a violation of regulations.


                                                         17
Concern 4: Holtec’s QA/QC oversight over US T&D was inadequate and resulted in
indeterminate cask quality and questionable structural integrity. US T&D’s disposition of
nonconformance conditions as “use-as-is,” “rework,” and “repair” was a violation of the
QA program for design control as specified in 10 CFR Part 71 and 10 CFR Part 72. “Use-
as-is” and “repair” dispositions are design changes and should be evaluated and
documented by engineering analysis. In addition, the fabricator dispositioned many
nonconformance conditions under its QA program without Holtec’s consent.

NRC Response: Staff reported that these matters were addressed in the response to Concern
3, above. Inspectors identified no examples that supported Shirani’s assertion that inadequate
QA oversight had caused indeterminate cask quality and questionable structural integrity.
Again, the staff determined that Shirani’s description of the condition was accurate, but that
there was no significant safety or regulatory issue that required further NRC action.

OIG Interviews Senior SFPO Inspector

The senior SFPO inspector on the SFPO inspection team during the 2001 and 2002 NRC
inspections at Holtec and US T&D told OIG that he concluded that Shirani’s characterization of
“wide-ranging welding deficiencies” was not substantiated. The inspector noted that the
deficiencies identified in the 2000 NUPIC audit were for the most part valid14 but primarily
involved procedure clarifications and weld documentation problems. The inspector believed
that the number of weld-related findings reported in the NUPIC audit was not excessive given
the number of welding specialists involved in the 2000 audit. Additionally, the inspector pointed
out that none of the weld findings contained issues that required any physical rework or repair of
the hardware. The inspector also concluded that there were no physical defects in the welding
of the dry casks that required Holtec to report welding deficiencies under 10 CFR Part 21.

The SFPO inspector found that Shirani’s second concern about the use of materials from
unapproved vendors was substantiated because US T&D had purchased thread gauges from a
vendor that was not on its approved vendor list. However, subsequent to the 2000 NUPIC audit
that identified this concern, US T&D had the accuracy of the gauges verified by an approved
vendor, and US T&D ensured that no measurements made with the gauges could have led to
conditions exceeding the design specifications. The inspector also noted that US T&D revised
its purchasing procedures to prevent recurrence. The inspector told OIG that his inspection
revealed that the use of unapproved vendors was not a widespread problem within US T&D.
Additionally, because of US T&D’s effective corrective action program, the inspector concluded
that this issue was not of safety significance and required no further NRC action.

The inspector further explained to OIG that he found that the Holtec and US T&D QA programs
were ensuring that design criteria and tolerances were met prior to acceptance of cask
components. The inspector noted that on occasion, contractually mandated notifications about
the acceptance of certain variances were not made between Exelon and Holtec. However, the
inspector explained that these reporting omissions did not violate NRC regulations because
engineering and QA notifications within Holtec and US T&D were being made as required. The
inspector reviewed the specific examples cited by Shirani, as well as sampling and reviews

14
   The May 28, 2002, NMSS response letter points out that 4 of the 11 weld deficiencies noted in the 2000 NUPIC
audit were determined by US T&D not to be valid. This determination, along with the corrective actions related to the
remaining seven deficiencies, was included in the US T&D response to the audit. The entire response was deemed
“reasonable” by Shirani’s October 19, 2000, letter.


                                                         18
conducted in the February 2002 NRC inspection of US T&D, and he found no instances where
the notifications required by regulation had failed to occur. Therefore, the inspector concluded
that no significant safety or regulatory concerns existed.

NRC’s Follow-up Responses

OIG learned that following the May 28, 2002, response from NMSS to Shirani, Shirani wrote at
least four letters and e-mails disputing the staff’s determinations. These letters and e-mails
were included in the NMSS allegation files and forwarded to the staff for their review. Because
of his familiarity with the issues, the senior SFPO inspector was assigned to review the letters to
determine if they contained new, relevant information that would cause a reevaluation of
Shirani’s concerns. The inspector told OIG that Shirani’s responses simply restated the issues
and did not make relevant clarifications or counterarguments.

In three written responses to Shirani, SFPO reiterated the earlier findings and included
additional descriptions of the inspection activities upon which their determinations were based.
SFPO’s last response, dated September 23, 2002, noted that unless “NRC receives additional
information that suggests that our conclusion should be altered, we plan no further action on this
matter.”

OIG Interviews SFPO Deputy Director

An SFPO Deputy Director, who also served as the NMSS ARB chairman, recalled reviewing
Shirani’s concerns when they were sent to SFPO. He noted that after reading the allegations
he felt no particular urgency with regard to Shirani’s concerns. The Deputy Director explained
that the dry casks related to the 2000 NUPIC audit had probably already been loaded by the
time NMSS received the allegation. He stated that after casks are loaded they are scanned and
monitored for leaks and that NRC had direct test data indicating that none of the casks were
leaking or otherwise emitting unusual radiation.

The Deputy Director indicated that he reviewed the May 14, 2002, inspection report prepared by
the SFPO inspectors and that the inspection findings were discussed by the NMSS ARB before
approving a response to Shirani. The Deputy Director recalled that after the ARB received a
copy of Shirani’s response critiquing SFPO’s review of his concerns, the senior SFPO inspector
indicated to the NMSS ARB that no additional, relevant information had been submitted. The
Deputy Director asked another SFPO materials expert to review Shirani’s letters and the senior
inspector’s conclusions. After reviewing the draft response, the materials expert concurred with
the senior SFPO inspector.

The Deputy Director expressed strong confidence to OIG in the SFPO’s ability to ensure
effective regulation of the QA programs at Holtec, US T&D, and other vendors and fabricators of
dry cask storage systems. The Deputy Director indicated that SFPO has a strong staff of
technical experts who, in addition to conducting inspections, have conducted numerous
analytical reviews to determine the ability of these casks to withstand a wide variety of threats.




                                                19
                                      FINDINGS

1.   OIG’s review of NRC’s inspection history at Holtec and US T&D did not substantiate
     Shirani’s concern that NRC failed to provide adequate oversight of Holtec and US T&D
     QA programs for the fabrication of dry cask storage systems. OIG determined that NRC
     conducted inspections of Holtec and US T&D QA programs in 1999, 2000, 2001, and
     2002. These inspections, as well as NUPIC audits of these QA programs conducted in
     1996, 1999, 2000, and 2002, disclosed a number of deficiencies. However, these
     examinations concluded that both QA programs were adequate and met requirements.
     OIG found no record that either NRC inspections or NUPIC audit reports uncovered
     systemic, significant problems within the Holtec or US T&D QA programs. Additionally,
     OIG determined that NRC verified that Holtec and US T&D took appropriate corrective
     actions in response to NRC inspection findings.

2.   OIG determined that NRC’s handling of the four concerns pertaining to dry cask integrity
     raised by Shirani in November 2001 was appropriate. Upon receiving Shirani’s concerns
     questioning the adequacy of the Holtec and US T&D QA programs pertaining to dry cask
     fabrication, the NRC Region III office handled the concerns consistent with NRC’s
     allegation review process. Region III documented its understanding of these concerns in
     letters to Shirani, and Shirani found the Region’s summary of his concerns to be
     satisfactory. Region III appropriately forwarded Shirani’s technical concerns regarding
     the QA oversight of the fabrication of dry cask storage systems to the SFPO at NRC
     Headquarters. SFPO inspectors conducted a timely inspection at Holtec into Shirani’s
     QA concerns. The NRC inspection into Shirani’s concerns found no violations of NRC
     regulations or safety significant deficiencies. OIG found that SFPO’s examination of
     Shirani’s concerns was sufficient to support its conclusion that the QA deficiencies
     pointed out by Shirani did not adversely impact the physical integrity of the Holtec dry
     cask storage systems.




                                           20
